Audit Report




OIG-13-025
Management Letter for the Audit of the Bureau of Engraving and
Printing’s Fiscal Years 2012 and 2011 Financial Statements
December 17, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF                              December 17, 2012
INSPECTOR GENERAL




            MEMORANDUM FOR LARRY R. FELIX, DIRECTOR
                           BUREAU OF ENGRAVING AND PRINTING

            FROM:                 Michael Fitzgerald
                                  Director, Financial Audits

            SUBJECT:              Management Letter for the Audit of the Bureau of Engraving
                                  and Printing’s Fiscal Years 2012 and 2011 Financial
                                  Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the Bureau of Engraving and Printing’s (BEP) Fiscal Years 2012 and 2011
            financial statements. Under a contract monitored by the Office of Inspector
            General, KPMG LLP, an independent certified public accounting firm, performed an
            audit of the financial statements of BEP as of September 30, 2012 and 2011, and
            for the years then ended. The contract required that the audit be performed in
            accordance with generally accepted government auditing standards; applicable
            provisions of Office of Management and Budget Bulletin No. 07-04, Audit
            Requirements for Federal Financial Statements, as amended; and the GAO/PCIE
            Financial Audit Manual.

            As part of its audit, KPMG LLP issued, and is responsible for, the accompanying
            management letter that discusses other matters involving internal control over
            financial reporting and its operations that were identified during the audit but were
            not required to be included in the audit reports.

            In connection with the contract, we reviewed KPMG LLP’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG LLP did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789 or a member
            of your staff may contact Shiela Michel, Manager, Financial Audits,
            at (202) 927-5407.

            Attachment
THE DEPARTMENT OF THE TREASURY

   BUREAU OF ENGRAVING AND
           PRINTING




          MANAGEMENT LETTER
 FOR THE YEAR ENDED SEPTEMBER 30, 2012
           DECEMBER 14, 2012
                                          BUREAU OF ENGRAVING AND PRINTING
                                                MANAGEMENT LETTER
                                        FOR THE YEAR ENDED SEPTEMBER 30, 2012

                                                           TABLE OF CONTENTS




MANAGEMENT LETTER .................................................................................................................................. 1

APPENDIX A ............................................................................................................................................ A-1

           Deficiencies in the Reconciliation of National Finance Center (NFC) Records to Payroll Records
           and the Leave Balance Carryover................................................................................................... A-1


           Documentation Related to Goods Received is Not Maintained ...................................................... A-2


           Deficiency in the Quarterly Review of Inactive Assets ................................................................... A-3


STATUS OF PRIOR YEARS’ MANAGEMENT LETTER COMMENTS ...............................................................B-1
                              KPMG LLP
                              Suite 12000
                              1801 K Street, NW
                              Washington, DC 20006




December 14, 2012

The Inspector General, Department of the Treasury and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:

In planning and performing our audit of the financial statements of the Bureau of Engraving and
Printing (the Bureau), as of and for the year ended September 30, 2012, in accordance with
auditing standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended, we considered the Bureau’s internal
control over financial reporting (internal control) as a basis for designing our auditing procedures
for the purpose of expressing our opinion on the financial statements but not for the purpose of
expressing an opinion on the effectiveness of the Bureau’s internal control. Accordingly, we do
not express an opinion on the effectiveness of the Bureau’s internal control.
During our audit, we noted certain matters involving internal control and other operational
matters that are presented for your consideration in Appendix A. These comments and
recommendations, all of which have been discussed with the appropriate members of
management, are intended to improve internal control or result in other operating efficiencies.
The Bureau’s responses to these comments and recommendations are included in Appendix A.
We did not audit the Bureau’s responses and, accordingly, we do not express an opinion on them.
Appendix B presents the status of the prior year management letter comments.

In addition, we identified certain deficiencies in internal control over financial reporting that we
consider collectively to be a significant deficiency, and communicated them in writing in Exhibit
I to the Independent Auditors’ Report on Internal Control Over Financial Reporting to
management and those charged with governance on December 14, 2012.
Our audit procedures were designed primarily to enable us to form an opinion on the financial
statements and, therefore may not bring to light all weaknesses in policies and procedures that
may exist. We aim, however, to use our knowledge of the Bureau’s organization gained during
our work to make comments and suggestions that we hope will be useful to you.

We would be pleased to discuss these comments and recommendations with you at your request.

This communication is intended solely for the information and use of the Department of the
Treasury’s Office of Inspector General and management of the Bureau, and is not intended to be
and should not be used by anyone other than these specified parties.

Very truly yours,




                              KPMG LLP is a Delaware limited liability partnership,
                              the U.S. member firm of KPMG International Cooperative
                              (“KPMG International”), a Swiss entity.
                                                                                        Appendix A




Deficiencies in the Reconciliation of National Finance Center (NFC) Records to Payroll
Records and the Leave Balance Carryover

The Bureau performs reconciliations between both the hours worked and accrued leave processed
by NFC and the amount of hours worked and accrued leave reflected in the Bureau’s payroll
records for a random sample of 25 employees each pay period. Additionally, this reconciliation
is reviewed by supervisory personnel. Bureau personnel that performed and reviewed the
reconciliation for the pay period ending November 23, 2011 did not discover a discrepancy in the
leave balance between the NFC records and the payroll records for one of 25 employees sampled
by the Bureau. Additionally, for one individual selected during our testwork, the individual’s
carryover leave balance of 252.5 hours exceeded the maximum allowable amount of 240 hours
for that individual.

Office of Management and Budget (OMB) Circular No. A-123, Management Accountability and
Control, Section II: Establishing Management Controls, states the following: “Transactions
should be promptly recorded, properly classified and accounted for in order to prepare timely
accounts and reliable financial and other reports. The documentation for transactions,
management controls, and other significant events must be clear and readily available for
examination.”

The U.S. Office of Personnel Management (OPM) has set an annual leave carryover ceiling of 30
days (240 hours) for federal employees stationed within the United States.

The Bureau does not have formal policies and procedures for completing and approving
reconciliations. The annual leave reconciliation performed was not always effective and thus did
not discover a difference in leave hours for one individual. Additionally, the supervisory review
of the reconciliation was not designed to detect instances where the initial reconciliation failed to
recognize a difference in leave hours as supervisory personnel only investigate differences found
by the initial reconciliation. A failure to detect a difference in leave hours carried over or accrued
could lead to a potential misstatement of the amount accrued as a payroll liability for leave hours.

We recommend the Bureau develop and implement written policies and procedures to ensure a
proper reconciliation and related supervisory review are performed over payroll data submitted to
the NFC.

Management Response:

Management concurs with the recommendation. The Bureau will review its current policies and
procedures and make adjustments, where necessary, to ensure the timely and accurate review of
reconciliations performed over payroll data.




                                                A-1
                                                                         Appendix A, continued



Documentation Related to Goods Received is Not Maintained

A Shipping & Receiving Materials Handler will sign the delivery slip and verify that the amounts
for the goods received agree to the accompanying packing slip. The packing slip received with
the goods will reference a Bureau Purchase Order number. The Materials Handler will enter the
Purchase Order number into the Manufacturing Support Suite (MSS), which is a component of
the Bureau of Engraving and Printing Enterprise (BEN), and the goods received will be matched
to the open Purchase Order information in the MSS. A Purchase order will remain open until all
goods are received. The clerk does not upload the packing slip into MSS, but instead files the
receiving document by receipt date in binders that are maintained in the receiving department.
Packing slips could not be provided for six of twenty-nine cash disbursements selected for testing
in which goods were received. For these six items, an entry in BEN by the receiving department
indicated the items had been received.

Office of Management and Budget (OMB) Circular No. A-123, Management Accountability and
Control, Section II: Establishing Management Controls, states the following: “Transactions
should be promptly recorded, properly classified and accounted for in order to prepare timely
accounts and reliable financial and other reports. The documentation for transactions,
management controls, and other significant events must be clear and readily available for
examination.”

The Bureau does not have an adequate filing system in place for packing slips and was not able to
locate the packing slips sampled. As a result, actual receipt of the goods for the six items
identified indicated in BEN could not be verified. If receiving documents do not exist for goods
marked as received within BEN, expenses and inventory could be overstated and payments for
the goods could be issued prematurely.

We recommend that the Bureau reassess its existing packing slip retention and maintenance
process to ensure that all receiving documents are maintained and stored in a secure location.

Management Response:

Management concurs with the recommendation and will re-emphasize the retention policy to the
receiving department.




                                               A-2
                                                                          Appendix A, continued



Deficiency in the Quarterly Review of Inactive Assets

During our tests of the status of inactive (reported as Construction-in-Progress or CIP) assets as
of September 30, 2012, we noted two projects amounting to approximately $15.4 million that
were classified as CIP that should have been reclassified as active fixed assets in 2012. The
reclassification error was a result of deficiencies in the design and operating effectiveness of
BEP’s quarterly review of the status of inactive CIP projects. Additionally, the fourth quarter
inactive asset review took an exceptionally long time to complete based on key personnel within
the process being out of the office during different times in the month of October.

OMB Circular No. A-123, Management Accountability and Control, Section III: Integrated
Internal Control Framework, states the following: “It is management’s responsibility to develop
and maintain effective internal control. As agencies develop and execute strategies for
implementing or reengineering agency programs and operations, they should design management
structures that help ensure accountability for results. As part of this process, agencies and
individual Federal managers must take systematic and proactive measures to develop and
implement appropriate, cost-effective internal control.”

CIP was overstated by approximately $15.4 million, Machinery and Equipment was understated
by $10.5 million, and IT Equipment and Software was understated by approximately $4.9
million, respectively, in BEP’s draft financial statements as of September 30, 2012. In addition,
depreciation expense and accumulated depreciation were also understated by approximately $1.5
million. BEP management subsequently recorded an adjustment to correct the error in the draft
financial statements as of and for the year ended September 30, 2012.

We recommend BEP (1) enhance its quarterly review of inactive assets by developing a template
project managers must complete to ensure all necessary information is obtained to make an
informed decision regarding the status and classification of the project as of the assessment date,
and (2) strengthen the management review of the quarterly assessment.

Management Response:

Management concurs with the recommendations and will develop a project manager template to
provide the appropriate information to support the status and classification for projects on a
quarterly basis. Additionally, the Bureau will implement a follow-up process to ensure the
timely receipt of project related information.




                                               A-3
                                                                                   Appendix B




     STATUS OF PRIOR YEARS’ MANAGEMENT LETTER COMMENTS

     Comments and Recommendations                                    Status
Untimely Reconciliation of National Finance
Center (NFC) Records to Payroll Records

We recommend the Bureau develop and
implement written policies and procedures to
ensure that timely reconciliations are
performed over payroll data submitted to the
                                                 This comment has been partially
NFC. Additionally, the Bureau should ensure
                                                 repeated in the current year. See
that these reconciliations are reviewed and that
                                                 Appendix A.
there are individuals designated and trained to
perform this reconciliation in case the primary
employee responsible for performing the
control is absent.

Unsupported Percentages Utilized in the
Inventory Obsolescence Calculation
We recommend the Bureau develop and
implement policies and procedures to reassess       We noted that BEP implemented a
the obsolescence percentages applied to the         written policy explaining the calculation
raw material and spare part inventories on an       of obsolescence percentages applied to
annual basis, and ensure documentation is           spare parts. We consider this comment
maintained to readily support the percentages       closed.
used.
Criteria for Management’s Review of
Financial Statements is Undefined
                                                    We     determined    the    BEP  has
We recommend that the Bureau develop and
                                                    implemented formal review procedures
implement policies and procedures over
                                                    over monthly financial statements,
management’s review of the Bureau’s monthly
                                                    including required explanations for
and annual financial statements that describes
                                                    variances larger than a specific
the criteria used to assess the reasonableness of
                                                    percentage or dollar amount.     We
those financial statements.
                                                    consider this comment closed.




                                             B-1
